C H A R L E S B. K L E I N
P a rt n e r
( 2 0 2) 2 8 2- 5 9 7 7
c kl ei n @ wi n st o n. c o m

A p ril 6, 2 0 2 1
S c ott S. H a r ri s
Cl e r k of t h e C o u rt
S u p r e m e C o u rt of t h e U nit e d St at e s
1 Fi r st St r e et, N. E.
W a s hi n gt o n, D. C. 2 0 5 4 3
R e:

N o. 2 0- 1 1 1 9, A m a ri n P h a r m a, I n c., e t al., v.
P h a r m a c e u ti c al s U S A I n c., e t al .

Hi k m a

D e a r M r. H a r ri s:
O n b e h alf of all r e s p o n d e nt s i n t h e a b o v e- c a pti o n e d c a s e, w e w rit e t o r e q u e st a
4 5- d a y e xt e n si o n of ti m e t o fil e o u r b ri ef i n o p p o siti o n t o t h e p etiti o n f o r c e rti o r a ri, t o
a n d i n cl u di n g J u n e 1 4, 2 0 2 1 (t h e 4 5t h d a y f all s o n S u n d a y, J u n e 1 3). T hi s i s t h e fi r st
e xt e n si o n of ti m e t h at r e s p o n d e nt s h a v e r e q u e st e d. W e h a v e c o nf e r r e d wit h c o u n s el
f o r p etiti o n e r s (“ A m a ri n”) a n d u n d e r st a n d t hat t h e y c o n s e nt t o a 2 0- d a y e xt e n si o n
b ut o p p o s e a l o n g e r e xt e n si o n.
T h e r e i s g o o d c a u s e f o r g r a nti n g t h e r e q u e st e d 4 5- d a y e xt e n si o n i n f ull. R es p o n d e nt s’ c o u n s el h a v e m ulti pl e p r e e xi sti n g s c h e d uli n g c o nfli ct s t h at li mit t h ei r
a bilit y t o p r e p a r e t h e b ri ef i n o p p o siti o n wit h o ut t h e r e q u e st e d e xt e n si o n, i n cl u di n g
a t ri al i n C e rt ai n M o v a bl e B a r ri e r O p e r at o r S y st e m s a n d C o m p o n e nt s T h e r e of , N o.
3 3 7- T A- 1 2 0 9 ( U. S. I. T. C.), b e gi n ni n g A p ril 2 8 ( w it h p o st-t ri al b ri efi n g d u e M a y 1 9 a n d
2 8), a n d a t ri al i n S a n ofi- A v e nti s U. S. L L C v. A ct a vi s L L C, N o. 2 0- 8 0 4 ( D. D el.), b egi n ni n g M a y 2 4. R e s p o n d e nt s’ c o u n s el al s o h a v e m ulti pl e h e a ri n g s s c h e d ul e d, a n d
b ri ef s d u e, d u ri n g t h e n e xt t w o m o nt h s i n ot h e r liti g ati o n m att e r s.
W e a r e n ot a w a r e of a n y r e a s o n w h y A m a ri n w o ul d b e p r ej u di c e d b y t h e r eq u e st e d e xt e n si o n. T h e U. S. C o u rt of A p p e al s f o r t h e F e d e r al Ci r c uit d e ni e d A m a ri n’ s
p etiti o n f o r r e h e a ri n g o n N o v e m b e r 4, 2 0 2 0, y et A m a ri n w ait e d m o r e t h a n t h r e e
m o nt h s, u ntil F e b r u a r y 1 1, 2 0 2 1, t o fil e it s p etiti o n f o r c e rti o r a ri. A m a ri n di d n ot
s e e k t o st a y t h e F e d e r al Ci r c uit’ s m a n d at e, n o r di d it s e e k t o e nj oi n r e s p o n d e nt s f r o m
l a u n c hi n g t h ei r a c c u s e d g e n e ri c d r u g p r o d u ct s t h at a r e t h e s u bj e ct of t hi s p at e nt i nf ri n g e m e nt l a w s uit. I n f a ct, r e s p o n d ent s Hi k m a P h a r m a c e uti c al s U S A I n c. a n d
Hi k m a P h a r m a c e uti c al s I nt e r n ati o n al Li mi t e d l a u n c h e d t h ei r a c c u s e d g e n e ri c p r o du ct o n N o v e m b e r 5. M o r e t h a n t h r e e w e e k s l at e r, o n N o v e m b e r 3 0, A m a ri n b r o u g ht
a n e w l a w s uit a g ai n st Hi k m a all e gi n g t h at it s g e n e ri c d r u g p r o d u ct i nf ri n g e s a n ot h e r

S c ott S. H a r ri s
A p ril 6, 2 0 2 1
Page 2
s et of p at e nt s, y et A m a ri n h a s n ot s o u g ht a p r eli mi n a r y i nj u n cti o n, n o r h a s it ot h e rwi s e s o u g ht t o e x p e dit e t h e c a s e, w hi c h r e m ai n s i n t h e i niti al pl e a di n g s st a g e. S e e
A m a ri n P h a r m a, I n c . v. Hi k m a P h a r m s. U S A I n c. , N o. 2 0- 1 6 3 0 ( D. D el.). A m a ri n’ s
a cti o n s t h u s b eli e a n y cl ai m of u r g e n c y o r p r ej u di c e.
T h a n k y o u f o r y o u r att e nti o n t o t hi s m att e r.
Si n c e r el y,
/ s/ C h a rl e s B. Kl ei n
C h a rl e s B. Kl ei n
c c:

S et h P. W a x m a n
C o n st a n c e S. H utt n e r

